AUGUST 5, 2010
                                  REDACTED FOR PUBLIC RELEASE




                                                 OFFICE OF AUDITS




        AUDIT OF CYBERSECURITY OVERSIGHT OF
                  [A NASA] SYSTEM




                                      OFFICE OF INSPECTOR GENERAL




                                                 National Aeronautics and
                                                     Space Administration




  REPORT NO. IG-10-018-REDACTED
                      REDACTED FOR PUBLIC RELEASE




THE FULL VERSION OF THIS REPORT INCLUDED INFORMATION THAT NASA CONSIDERED TO BE
SENSITIVE INFORMATION WHICH, IF DISTRIBUTED WIDELY, COULD POSE A SECURITY THREAT TO
NASA COMPUTER SYSTEMS. WHERE SUCH INFORMATION HAS BEEN REDACTED IS NOTED IN THE
REPORT.




Final report released by:



Paul K. Martin
Inspector General




Acronyms – Redacted

CIO          Chief Information Officer
FIPS         Federal Information Processing Standards
IT           Information Technology
ITS          Information Technology Security
NIST         National Institute of Standards and Technology
NITR         NASA Information Technology Requirement
NPR          NASA Procedural Requirements
OCIO         Office of the Chief Information Officer
OMB          Office of Management and Budget
SOP          Standard Operating Procedure
SP           Special Publication


                                                                  REPORT NO. IG-10-018-R
AUGUST 5, 2010                                              REDACTED FOR PUBLIC RELEASE




                                                                                              OVERVIEW

                      AUDIT OF CYBERSECURITY OVERSIGHT OF
                                [A NASA] SYSTEM

                                                                                                The Issue

  The Center for Strategic and International Studies reported in January 2009 that industrial
  spies, foreign intelligence agents, Internet criminals, and others have penetrated poorly
  protected U.S. computer networks and collected immense quantities of valuable
  information. Because of these and other illegal activities, the President has identified the
  protection of our digital infrastructure as a national security priority.

  [The NASA system that we reviewed for this audit] is a core system used to process,
  store, and distribute vital Agency intellectual property, such as [. . .], and crucial program
  and project information. [The reviewed system] is categorized as a “high-impact system”
  under Federal Information Processing Standards (FIPS) Publication 199, “Standards for
  Security Categorization of Federal Information and Information Systems,” February
  2004. As such, a compromise of security controls1 for a high-impact system could result
  in severe adverse impact, leading to degradation in or loss of NASA’s mission capability,
  harm to individuals, or life-threatening injuries. In October 20[XX], NASA awarded a
  4-year contract to [a contractor] for, among other things, operation of [the reviewed
  system].

  The National Institute of Standards and Technology (NIST) Computer Security Division,
  under the authority of Title III of the E-Government Act, also known as the Federal
  Information Security Management Act of 2002, developed security requirements for
  Federal information and information systems using a standardized, risk-based approach
  to assist agencies in securing their systems and data.

  Our objective in this audit was to determine whether NASA’s security controls and
  practices were implemented to ensure the confidentiality, integrity, and availability of
  [the reviewed system’s] data. Details of the audit’s scope and methodology can be found
  in Appendix A.




  1
      Security controls are the management, operational, and technical controls prescribed for information
      contained in an information system that, when taken together, satisfy the specified security requirements
      and adequately protect the confidentiality, integrity, and availability of the system and the information.



REPORT NO. IG-10-018-R
 REDACTED FOR PUBLIC RELEASE                                                                                OVERVIEW



     Results

     During the audit, we evaluated security controls for 13 of 17 families2 listed in
     NIST Special Publication (SP) 800-53, “Recommended Security Controls for Federal
     Information Systems,” Revision 2, December 2007, that we considered the most critical
     to mitigate the risk of outside intrusion and internal trespassing of [the reviewed system].
     [The reviewed system] contained security controls that met the NIST requirements for an
     effective information technology (IT) security posture. For example, [the reviewed
     system] had security controls that included security awareness and training of personnel;
     contingency planning related to safeguarding data to include file backups and alternative
     processing sites in case of a disaster; procedures to protect system and information
     integrity, such as malicious code protection; and comprehensive access controls.
     However, we found several significant security control weaknesses in [the reviewed
     system] that could threaten the confidentiality, integrity, and availability of critical
     information. Those weaknesses include the following:

               Outdated Security Plan. NASA has not revised [the reviewed system’s] 2008
                [. . .] Security Plan to include required NIST SP updates on recommended
                security controls for Federal information systems. For example, NIST SP 800-53,
                Revision 2, December 2007, included 6 additional security controls and
                37 control enhancements that were not included in prior NIST standards. In
                addition, the [reviewed system’s] Security Plan did not include the appropriate
                guidance for audit and accountability controls, nor did it reference the most recent
                guidance on vulnerability scanning. By not keeping security plans current and
                complete with the appropriate security controls and guidance, NASA officials do
                not have assurance that essential security control requirements are being
                addressed appropriately.

               Limited Vulnerability Scanning Coverage. [The contractor’s] internal IT
                auditors did not perform credentialed vulnerability scans3 on [contractor]-
                managed systems. As a result, as many as 5,130 vulnerability checks of varying
                impact levels are rendered inoperable, which increases the probability that an
                attacker could gain access and carry out inappropriate or malicious acts on the
                Agency’s network without being detected.

               Vulnerability of Local Administrator Accounts. Three of the five [. . .] servers
                in our sample (see Appendix A for details about our sample selection) contained
                built-in administrator accounts that were not renamed as required and their
                passwords had no expiration. If a built-in administrator account on [a server of


     2
         NIST organized security controls into classes and families for ease of use in the control selection and
         specification process, as shown in the table on page 4 of this report.
     3
         Credentialed vulnerability scans are scans that are performed using administrator-level privileges. Having
         credentials allows vulnerability checks of all areas of an information system.



ii                                                                                         REPORT NO. IG-10-018-R
OVERVIEW                                        REDACTED FOR PUBLIC RELEASE



         the reviewed system] is compromised, a skilled attacker could gain access to any
         of NASA’s systems that are attached to [the reviewed system].

        Use of Unauthorized Software. We found software installed on [one of the
         reviewed system’s] server[s] that was not approved for installation, and it
         contained multiple high-impact vulnerabilities that could allow an intruder to gain
         undetected access to NASA’s network. Having this software installed on [. . .]
         server[s] potentially compromised NASA’s valuable intellectual property.

        Hardware and Software Inventory Controls Lacking. Inventories of IT
         hardware components were not accurate or readily available. We found that
         active [reviewed system] hardware component listings were not readily available
         and contained errors and numerous duplicate entries. In addition, as noted earlier,
         we identified software on [a server of the reviewed system] that was unaccounted
         for by [contractor] IT security personnel and contained high-impact
         vulnerabilities. If an organization cannot easily produce an accurate listing of
         hardware and software components on its system, as well as maintain accurate
         documentation of those components, the potential for exploitation of
         vulnerabilities that stem from a lack of security controls is increased.

        Media Protection Needed. [The contractor] transferred media tapes to a storage
         location at [another Federal facility] but did not obtain written confirmation of
         delivery. Written confirmation of the transfer of the media tapes is essential to
         ensure continuity of operations; enable the Agency to perform emergency
         preparedness, response, and recovery; and protect Agency assets.

  Without comprehensive implementation of security controls, NASA cannot ensure the
  confidentiality, integrity, and availability of [the reviewed system’s] data. The
  weaknesses we identified occurred because NASA did not perform adequate contract
  oversight to ensure that [the contractor] complied with NIST security control
  requirements. As a result, NASA has limited assurance that all required controls are
  functioning to protect [the reviewed system’s] data. Furthermore, given the deficiencies
  noted, NASA cannot ensure that [the reviewed system] is not vulnerable to attack or
  compromise with the potential to severely disrupt NASA’s mission capability. In
  addition to [the reviewed system], [the contractor] manages [numerous] other systems for
  NASA, and we believe that [the contractor] is using similar security practices for all
  [those] systems. Therefore, although we did not specifically examine the other
  [contractor]-managed systems for the deficiencies that we identified for [the reviewed
  system], our audit findings raise serious concerns about the security of NASA data
  contained in those other [. . .] systems.

  Management Action

  To improve security control practices for [the reviewed system] and the other
  [. . .] systems managed by [the contractor], we recommended that NASA officials take


REPORT NO. IG-10-018-R                                                                         iii
REDACTED FOR PUBLIC RELEASE                                                              OVERVIEW



     steps to review security plans annually for completeness and eliminate internal control
     weaknesses related to vulnerability scans, local administrator accounts, installation of
     unauthorized software, and hardware and software inventories on [the reviewed system’s]
     servers. In addition, we recommended that a review of the other [. . .] systems managed
     by [the contractor] be completed to identify and correct similar security control
     weaknesses that may exist in those systems.

     We also recommended that the NASA Chief Information Officer, [the reviewed
     system’s] Information System Owner [and various other NASA officials] coordinate their
     efforts to provide [the contractor] with guidance to meet [the contract] requirements and
     Federal, NASA, and [contractor] policies and procedures.

     During the course of this audit, [the contractor] improved its security controls for media
     protection by updating its policy to require written confirmation of delivery of media
     tapes. Accordingly, we are making no additional recommendations for this issue.

     In response to our May 26, 2010, draft of this report, NASA management generally
     concurred with all six recommendations and stated that it will take steps to mitigate and
     improve [the reviewed system’s] security control practices related to vulnerability scans,
     local administrator accounts, installation of unauthorized software, and hardware and
     software inventories on [the reviewed system’s] servers. In addition, the Office of the
     Chief Information Officer said it will review the other [. . .] systems managed by [the
     contractor] to identify and correct similar security control weaknesses that may exist in
     those systems.

     We consider management’s proposed actions to be responsive to our recommendations.
     However, management’s responses did not include a timeline for completion of the
     proposed actions. Therefore, we request that NASA provide a timeline for completing
     the actions in response to the final report. We will close the recommendations after
     verifying that the actions have been taken.




iv                                                                         REPORT NO. IG-10-018-R
AUGUST 5, 2010                     REDACTED FOR PUBLIC RELEASE




                                                       CONTENTS

  INTRODUCTION
     Background __________________________________________ 1
     Objective ____________________________________________ 4

  RESULTS
     [The Reviewed System’s] Security Control Practices Need
        Improvement ______________________________________ 5

  APPENDIX A
     Scope and Methodology _______________________________ 17
     Review of Internal Controls _____________________________ 18
     Prior Coverage _______________________________________ 18

  APPENDIX B
     Policies and Procedures ________________________________ 19

  APPENDIX C
     [Redacted] __________________________________________ 24

  APPENDIX D
     Report Distribution ___________________________________ 25




REPORT NO. IG-10-018-R
AUGUST 5, 2010                                              REDACTED FOR PUBLIC RELEASE




                                                                                      INTRODUCTION


Background

  The Center for Strategic and International Studies, one of the world’s preeminent public
  policy institutions on foreign policy and national security issues, reported in January
  2009 that industrial spies, foreign intelligence agents, Internet criminals, and others have
  penetrated poorly protected U.S. computer networks and collected immense quantities of
  valuable information. Because of these and other illegal activities, the President has
  identified the protection of our digital infrastructure as a national security priority.

  [The NASA system that we reviewed] is a core system used to process, store, and
  distribute vital Agency intellectual property, such as [. . .], and crucial program and
  project information. [The reviewed system] is categorized as a “high-impact system”
  under Federal Information Processing Standards (FIPS) Publication 199, “Standards for
  Security Categorization of Federal Information and Information Systems,” February
  2004. A compromise of security controls for a high-impact system could result in severe
  adverse impact, leading to degradation in or loss of NASA’s mission capability, harm to
  individuals, or life-threatening injuries.

  [Subheading Redacted]. [The reviewed system] is a major NASA information system
  that requires heightened security oversight because of the risk and magnitude of harm
  that could result from the loss, misuse, unauthorized access to, or modification of the
  information in the system. Examples of data stored, processed, analyzed, and reported
  within [the reviewed system] include
            essential [. . .] engineering data,
            NASA program and project life-cycle information,
            [flight project] information,
            [sensitive legal information], and
            NASA lessons learned, historical data, and other relevant information.

  [The reviewed system] is a commercial off-the-shelf 3-tier client/server architecture4
  supported by various servers within the information technology (IT) infrastructure of [the
  contractor]. NASA uses [the reviewed system] to process, store, and distribute important
  NASA intellectual property, such as [. . .], to NASA’s information system users.

  4
      A 3-tier architecture contains an intermediary level, meaning the architecture is generally split among
      (1) a client that requests the resources equipped with a user interface (usually a Web browser) for
      presentation purposes; (2) the application server, which provides requested resources contained on
      another server; and (3) the data server, which provides the application server with the data requested.



REPORT NO. IG-10-018-R                                                                                          1
REDACTED FOR PUBLIC RELEASE                                                       INTRODUCTION



    [The reviewed system] provides a hardware and software infrastructure that enables the
    integration of multiple operational databases into a single database view designed
    specifically for reporting and analytical processing. [The reviewed system] consists of
    19 applications and [numerous] servers located in [. . .]. [The contractor’s] contractual
    requirements and responsibilities are identified in the [applicable contract].

    The contract requires [the contractor] to follow the requirements in NASA Procedural
    Requirements (NPR) 2810.1A, “Security of Information Technology,” May 16, 2006,
    which applies to all NASA contracts. NPR 2810.1A states that NASA IT security
    policies, requirements, and procedures must be established to implement National
    Institute of Standards and Technology (NIST) standards on IT security to support
    NASA’s missions. The [reviewed system’s] Security Plan also references [the
    contractor’s] policies and procedures. The NIST Computer Security Division, under the
    authority of Title III of the E-Government Act, also known as the Federal Information
    Security Management Act of 2002, developed security requirements for Federal
    information and information systems using a standardized, risk-based approach to assist
    agencies in securing their systems and data.

    [Paragraph Redacted]

    Guidance. [The reviewed system’s] content is subject to the policies outlined in the
    Arms Export Control Act, as implemented by the International Traffic in Arms
    Regulations. [Therefore], the International Traffic in Arms Regulations apply to the
    contents of this system. Therefore, security controls must ensure that information
    contained in [the reviewed system] is not compromised.

    NIST Special Publication (SP) 800-53, “Recommended Security Controls for Federal
    Information Systems,” Revision 2, December 2007, provides a catalog of controls based
    on a system’s impact levels – categorized as low, moderate, and high – to ensure the
    confidentiality, integrity, and availability of the system. NIST SP 800-53, Revision 2,
    also provides guidelines for selecting and specifying security control baselines for
    information systems supporting the executive agencies of the Federal Government. The
    guidelines apply to all components of an information system that process, store, or
    transmit Federal information and seek to

          facilitate a more consistent, comparable, and repeatable approach for selecting
           and specifying security control baselines for information systems and
           organizations;

          provide a recommendation for minimum security controls for information systems
           categorized in accordance with FIPS Publication 199;

          provide a stable yet flexible catalog of security controls for information systems
           and organizations to meet current organizational protection needs and the
           demands of future protection needs based on changing requirements and
           technologies;


2                                                                        REPORT NO. IG-10-018-R
INTRODUCTION                                               REDACTED FOR PUBLIC RELEASE



              create a foundation for the development of assessment methods and procedures
               for determining security control effectiveness; and

              improve communication among organizations by providing a common lexicon
               that supports discussion of risk management concepts.

  To assist organizations in making the appropriate selection of security controls for their
  information systems, NIST SP 800-53 introduced the concept of baseline controls.
  Baseline controls identify the starting point for the security control selection process –
  that is, the minimum set of security controls for an information system. Because the
  baseline is intended to be a broadly applicable starting point, the baseline can be tailored
  to achieve adequate risk mitigation. The tailored security control baseline is
  supplemented by an organizational assessment of risk, and the resulting controls are
  documented in the security plan for the information system.

  NIST has organized security controls into classes and families for ease of use in the
  control selection and specification process. The following table summarizes the 3 classes
  and 18 families in the security control catalog and the associated family identifiers.

                             Security Control Classes, Identifiers, and Families
             Class          Identifier                                    Family
       Management              CA            Certification, Accreditation, and Security Assessments
                               PL            Planning
                               PM            Program Managementa
                               RA            Risk Assessment
                               SA            System and Services Acquisition
       Operational             AT            Awareness and Training
                               CM            Configuration Management
                               CP            Contingency Planning
                               IR            Incident Response
                               MA            Maintenance
                               MP            Media Protection
                               PE            Physical and Environmental Protection
                               PS            Personnel Security
                               SI            System and Information Integrity
        Technical               AC           Access Control
                                AU           Audit and Accountability
                                IA           Identification and Authentication
                                SC           System and Communications Protection
   a
       NIST SP 800-53, Revision 3, August 2009, added Program Management controls to complement the
       security controls for an information system by focusing on the organization-wide information security
       requirements that are independent of any specific information system and are essential for managing
       information security programs.




REPORT NO. IG-10-018-R                                                                                         3
REDACTED FOR PUBLIC RELEASE                                                       INTRODUCTION



Objective

    Our objective was to evaluate whether NASA’s security practices and controls for [the
    reviewed system] were adequate to ensure the confidentiality, integrity, and availability
    of [the reviewed system’s] data. We focused on selected controls that we considered
    necessary to mitigate the risk of outside intrusion and internal trespassing of [the
    reviewed system]. We also evaluated internal controls as they related to the objective.
    See Appendix A for details of the audit’s scope and methodology, our review of internal
    controls as they related to the objective, and a list of prior audit coverage.




4                                                                       REPORT NO. IG-10-018-R
RESULTS                                           REDACTED FOR PUBLIC RELEASE




                                                    [THE REVIEWED SYSTEM’S]
                                                           SECURITY CONTROL
                                                             PRACTICES NEED
                                                               IMPROVEMENT

          During the audit, we evaluated security controls for 13 of 17 NIST SP 800-53
          families that we considered the most critical to mitigate the risk of outside intrusion
          and internal trespassing of [the reviewed system]. We identified that [the reviewed
          system], which is categorized as a “high-impact system” under FIPS Publication 199,
          contained security controls that met NIST baseline requirements for an effective IT
          security posture for a system of its impact level. Such security controls included
          security awareness and training of personnel; contingency planning related to
          safeguarding data to include file backups and alternative processing sites in case of a
          disaster; procedures to protect system and information integrity, such as malicious
          code protection; and comprehensive access controls. However, we found several
          significant security control weaknesses in [the] NASA [system] that could threaten
          the confidentiality, integrity, and availability of critical information. NASA needs to
          fully implement the required baseline security controls for [the reviewed system] to
          protect the confidentiality, integrity, and availability of [the reviewed system’s] data.


NASA and [the Contractor] Made Effective Use of Selected
 Security Controls

  During our audit of [the reviewed system], we identified several effective security control
  practices in use by NASA and [the contractor] for security awareness and training,
  contingency planning, system and information integrity, and access control.

  Security Awareness and Training. NASA and [the contractor] have established IT
  security awareness and training policy and procedures. NPR 2810.1A requires NASA to
  follow

         NIST SP 800-16, “Information Technology Security Training Requirements: A
          Role- and Performance-Based Model,” April 1998, which outlines a conceptual
          framework for providing IT security training; and

         NIST SP 800-50, “Building an Information Technology Security Awareness and
          Training Program,” October 2003, which provides guidelines for building and
          maintaining a comprehensive security awareness and training program.




REPORT NO. IG-10-018-R                                                                            5
REDACTED FOR PUBLIC RELEASE                                                               RESULTS



    The NIST guidance states that Federal agencies and organizations should protect the
    confidentiality, integrity, and availability of information by ensuring that all those
    involved in using and managing IT

          understand their roles and responsibilities related to the organizational mission;

          understand the organization’s IT security policy, procedures, and practices; and

          have at least adequate knowledge of the various management, operational, and
           technical controls required and available to protect the IT resources for which
           they are responsible.

    We determined that [the contractor] had developed a process using its Computer User
    Registration Form (Registration) system to authorize access to [the reviewed system].
    The Registration system requires data owner and supervisory approvals before allowing
    access to [the reviewed system]. Personnel with access to [the reviewed system] are
    required to complete annual IT security awareness training and the Registration system
    requires verification of that training. [The contractor] documented and tracked training
    through its internal computer-based training system for contractor personnel having
    access to [the reviewed system]. For NASA personnel with access to [the reviewed
    system], NASA tracked IT security awareness and training through its training system.

    Contingency Planning. [The contractor] implemented procedures that would enable
    recovery of IT services following an emergency or system disruption. NPR 2810.1A
    requires NASA to follow the contingency planning guidance in NIST SP 800-34,
    “Contingency Planning Guide for Information Technology Systems,” June 2002.
    NIST SP 800-34 defines contingency planning as interim measures to recover IT services
    following an emergency or system disruption. We found that [the contractor] performed
    a backup of electronic data weekly and then sent those backup media files to alternate
    storage locations. In addition, [the contractor] identified [appropriate] IT facilities at
    [. . .] as alternative processing sites in case of a disaster.

    System and Information Integrity. [The contractor] implemented policies and
    procedures that protect information systems and related data from design flaws and data
    modification. Our review of selected servers [on the reviewed system] revealed that
    antivirus software was current and contained the most recent virus definitions. In
    addition, [the contractor]’s patch management procedures were operating as intended to
    ensure that operating system vulnerabilities of the [reviewed system’s] servers were
    identified and addressed in a timely manner.

    Access Control. Our review of [the reviewed system] user listings found that [the
    contractor] had strict account management practices in place. [The contractor] used its
    server operating system access enforcement controls to ensure only authorized users had
    access to [the reviewed system’s] data. [The contractor]’s policy, [. . .], Revision 10,
    “Information Technology Resource Access,” March 1, 2008, established and
    implemented controls for physical and logical (electronic) access to IT resources


6                                                                        REPORT NO. IG-10-018-R
RESULTS                                           REDACTED FOR PUBLIC RELEASE



  managed by [the contractor], which includes [the reviewed system]. [The contractor]
  used the Registration system process identified in this policy for access enforcement and
  account management control procedures. Administrators used operating system and
  application controls to support [the contractor]’s Registration system process, which
  requires data owner approvals, including level of access, before allowing individuals
  access to [the reviewed system].


Improvements Needed to Fully Implement Security Controls for
  NASA’s [Reviewed System]

  [The reviewed system’s] security control practices need improvement to ensure the
  confidentiality, integrity, and availability of critical information. We found that the latest
  approved [. . .] Security Plan [for the reviewed system] was not updated to appropriately
  address baseline security controls, vulnerability scanning procedures were not
  comprehensive, local administrator accounts were not configured properly, unauthorized
  software was found installed on [one of the reviewed system’s] server[s], hardware and
  software inventories were not accurate and complete, and written confirmation was not
  obtained when media tapes were delivered to the storage facility. These security control
  issues occurred because

         NASA and [contractor] personnel did not always follow all Federal guidelines,
          contractual requirements, policies, and procedures;

         NASA officials did not provide continual oversight of contractual requirements;

         NASA officials did not update policies and procedures to incorporate the most
          current IT security practices nor did they disseminate policies and procedures to
          responsible personnel; and

         NASA officials did not proactively employ the most current practices to mitigate
          risks to critical information.

  The issues we identified reduced the effectiveness of NASA’s IT security program and
  increased the possibility that vulnerabilities will go undetected, remain uncorrected, and
  be exploited through malicious attacks. The potential for compromise of [the reviewed
  system], as well as other systems managed by [the contractor], could lead to degradation
  in or loss of NASA’s mission capability or harm to individuals.

  Outdated Security Plan. NASA and [contractor] officials had not properly updated the
  [reviewed system’s] Security Plan, Revision D, since September 2008. Federal, NASA,
  and [contractor] regulations, policies, procedures, and guidance, as well as the contract
  between NASA and [the contractor], require the creation and maintenance of security
  plans containing security controls appropriate for the risks assigned to that system and
  that the security plans be current.



REPORT NO. IG-10-018-R                                                                             7
REDACTED FOR PUBLIC RELEASE                                                             RESULTS



    Federal, NASA, and [contractor] regulations, policies, procedures, and guidance essential
    in the preparation and maintenance of the [reviewed system’s] Security Plan at the time
    of our audit included

          Office of Management and Budget (OMB) Circular No. A-130, Revised,
           “Management of Federal Information Resources,” Appendix III, “Security of
           Federal Automated Information Resources,” November 28, 2000;

          NIST SP 800-53, “Recommended Security Controls for Federal Information
           Systems,” Revision 2, December 2007;

          NIST SP 800-18, “Guide for Developing Security Plans for Federal Information
           Systems,” Revision 1, February 2006;

          NPR 2810.1A, “Security of Information Technology,” May 16, 2006;

          Information Technology Security (ITS)-Standard Operating
           Procedure (SOP)-0016B, “Subordinate Information Technology Security Plan
           Template, Requirements, Guidance and Examples,” July 11, 2006; and

          [contractor’s policy]

    A complete listing of Federal, NASA, and [contractor] regulations, policies, procedures,
    and guidance, as well as a synopsis of those requirements, is provided in Appendix B.

    We compared the [reviewed system’s] Security Plan, Revision D, with requirements in
    NIST SP 800-53, Revision 2, which was the applicable guidance when the [reviewed
    system’s] Security Plan was updated. We noted that not all security controls and security
    control enhancements were included. For example, the [reviewed system’s] Security
    Plan contained 157 baseline security controls of the 163 baseline security controls for a
    high-impact system that are required by NIST SP 800-53, Revision 2. Examples of
    security controls not in the [reviewed system’s] Security Plan included the following:

          Security-Related Activity Planning. The organization is to plan and coordinate
           activities affecting information systems before conducting such activities to
           reduce the impact on organizational operations, organizational assets, and
           individuals. (See Limited Vulnerability Scanning Coverage, on page 10.)

          Information System Component Inventory. The organization is to develop,
           document, and maintain an inventory of hardware and software components that
           is accurate and available for review and audit by designated organizational
           officials. (See Hardware and Software Inventory Controls Lacking, on page 12.)

    Also, NIST SP 800-53, Revision 2, requires an additional 37 control enhancements that
    were not included in NIST SP 800-53, February 2005.



8                                                                       REPORT NO. IG-10-018-R
RESULTS                                         REDACTED FOR PUBLIC RELEASE



  The [reviewed system’s] Security Plan, Revision D, did not include the appropriate
  guidance for audit and accountability controls, nor did it reference the most recent
  guidance on vulnerability scanning. We identified the following issues in the [reviewed
  system’s] Security Plan:

         NASA Information Technology Requirement (NITR) 2810-19, “Audit and
          Accountability Policy and Procedures,” was issued in November 2008 as the
          replacement for NPR 2810.lA, Chapter 21, “Audit Trails and Accountability.”
          However, NPR 2810.1A was not updated to reference the procedures outlined in
          NITR 2810-19. In addition, [contractor] IT security personnel were unaware that
          NITR 2810-19 replaced NPR 2810.1A, Chapter 21.

         The [reviewed system’s] Security Plan references ITS-SOP-0038, “Procedure for
          Auditing and Accountability Controls,” for audit and accountability controls.
          NASA officials stated that ITS-SOP-0038 was replaced by NITR 2810-19.
          However, ITS-SOP-0038 is not referenced in NITR 2810-19, and NASA officials
          could not provide us a copy of ITS-SOP-0038.

         NPR 2810.1A and ITS-SOP-0021 both reference and require adherence to
          NIST SP 800-42, “Guideline on Network Security Testing,” October 2003, for
          vulnerability scanning. However, NIST SP 800-42 was replaced by
          NIST SP 800-115, “Technical Guide to Information Security Testing and
          Assessment,” in September 2008. NIST SP 800-115 provides more current and
          detailed guidance on vulnerability scanning, security assessments, and network
          discovery.

  If NASA IT security personnel are not aware of the most current security guidance, this
  can increase the risks to Agency information systems.

  We also found that the [reviewed system’s] Security Plan had not been periodically
  assessed or properly updated, contributing to the failure to identify references to expired
  and nonexistent criteria. For example, the Security Plan referenced five ITS-SOPs that
  expired between October 2007 and July 2008 and referenced two ITS-SOPs that NASA
  and [contractor] officials could not locate (see Appendix B, page 22, for a complete list
  of expired and nonexistent procedures referenced in the Security Plan). According to [the
  contractor]’s past two annual review letters, 10 [of the contractor’s] system
  administrators reviewed the [system’s] Security Plan for accuracy and completeness.
  However, these reviewers failed to identify the deficiencies noted in this audit report.
  The [reviewed system’s] Security Plan even contradicts NPR 2810.1A by stating that
  updates are required every 3 years when, in fact, they are required annually.

  Our analysis showed that [the contractor] did not update the [reviewed system’s] Security
  Plan to reflect the format mandated by ITS-SOP-0016B to include specific information
  related to each system. We identified 43 instances in the [reviewed system’s] Security
  Plan, Revision D, where the information was not complete. For example, the [reviewed
  system’s] Security Plan did not include how often the organization should


REPORT NO. IG-10-018-R                                                                          9
REDACTED FOR PUBLIC RELEASE                                                                RESULTS



           review and revise the plan to address system and organization changes or
            problems identified during plan implementation or security control assessments,

           conduct an assessment of the information system’s security controls, or

           scan for vulnerabilities in the information system using appropriate vulnerability
            scanning tools and techniques.

     In addition, because the [reviewed system’s] Security Plan was not complete, it was not
     possible for the contractor who conducted the certification and accreditation analysis for
     [the reviewed system] to verify whether security controls had been implemented and
     were operating as intended. This problem was also identified in three other security plans
     supporting [the reviewed system]. Furthermore, the contractor had reported this problem
     13 months before [the reviewed system’s] Security Plan, Revision D, was issued.
     NPR 2810.1A requires information system owners to ensure that system security plans
     have been reviewed for completeness prior to proceeding with the certification and
     accreditation process. We found that NASA’s review process did not identify that the
     [reviewed system’s] Security Plan and the three supporting security plans were not
     complete prior to the certification and accreditation process.

     These deficiencies occurred because officials in the NASA Office of the Chief
     Information Officer (OCIO) did not review, update, and disseminate all guidance related
     to system security plans. The NASA Chief Information Officer (CIO) is responsible for
     updating NPR 2810.1A and ITS-SOPs and for disseminating the information to the
     appropriate personnel. Because the updated guidance was not identified and referenced
     properly in NASA’s IT security requirements publication, NASA and [contractor] IT
     security personnel were unaware of improvements that they could have applied to [the
     reviewed system].

     In addition, the [responsible Center official] did not ensure that [the contractor] complied
     with NPR 2810.1A and ITS-SOP-0016B. As a result, the [reviewed system’s] Security
     Plan was not complete, current, correct, or properly updated. Finally, the [. . .]
     Contracting Officer and the NASA CIO did not provide sufficient oversight to ensure that
     [the contractor] complied with contractual responsibilities, IT security requirements, and
     Federal, NASA, and [contractor] policies and procedures. Therefore, NASA officials
     cannot have assurance that all necessary security controls are in place and operating as
     required.

     [Paragraph Redacted]

     Limited Vulnerability Scanning Coverage. [The contractor’s] internal IT auditors did
     not perform credentialed vulnerability scans on NASA’s systems. Credentialed
     vulnerability scans are performed using administrator-level privileges, which allows
     vulnerability checks of all areas of an information system. In addition, the NASA CIO
     had not established procedures to eliminate or mitigate the risks associated with not
     performing credentialed scans. NPR 2810.1A states that hardware and software


10                                                                        REPORT NO. IG-10-018-R
RESULTS                                           REDACTED FOR PUBLIC RELEASE



  configuration management activities should include an effective vulnerability reduction
  program that periodically scans for critical high-impact vulnerabilities. [One of the
  contractor’s policies] requires [the contractor’s] internal IT auditors to ignore credentials
  when performing vulnerability scans.

  During our audit, we identified vulnerable software on one of the five [reviewed
  system’s] servers in our sample (see Appendix A for details of our sample selection).
  The software had three vulnerabilities listed as high impact and one vulnerability listed as
  low impact by the U.S. Computer Emergency Readiness Team and NIST’s National
  Vulnerability Database. Both organizations reported that the identified software could
  allow an attacker to gain full access to the affected system. If [the contractor]’s internal
  IT auditors performed credentialed scans, the software would have been detected and
  mitigation strategies would have been deployed. However, the [responsible Center
  official] stated that they did not perform credentialed scans because of concern about
  overutilization of server and network resources, which could create a denial of service for
  [the reviewed system] users. While this may have been true in the past when conducting
  credentialed vulnerability scans over the network, there are practices, such as customized
  filtering and host-based scans, that may minimize the disruption to servers and network
  resources. Credentialed vulnerability scans can be filtered and conducted at the specific
  server being targeted to minimize disruption to the system. By not performing
  credentialed scans, as many as 5,130 vulnerability checks of varying impact levels are
  rendered inoperable and high-impact vulnerabilities will go undetected. Further, [the
  contractor] manages [numerous] systems for NASA using the same vulnerability
  management practices.

  While we understand that credentialed scans are not a NASA requirement, without
  supplemental mitigating strategies, such as ensuring accurate inventories and software
  discovery, un-credentialed scans are simply not sufficient to provide an acceptable level
  of security, as evidenced by our identification of vulnerable software on [the reviewed
  system].

  By not performing credentialed scans, the probability that high-impact vulnerabilities
  remain undetected and uncorrected is increased. Risk cannot be effectively measured and
  mitigated in such an environment, increasing the possibility that vulnerabilities would be
  exploited by attackers.

  Vulnerability of Local Administrator Accounts. [Out] of the five [reviewed system’s]
  servers in our sample[, three] contained built-in administrator accounts that had not been
  renamed as required and their passwords had no expiration. [One of the contractor’s
  policies] requires system administrators, prior to placing servers on NASA’s network, to
  rename administrator accounts and set the passwords to expire every 60 days. Prior to a
  server being introduced into NASA’s network, an initial scan report is generated to
  identify any built-in administrator accounts with noncompliant settings. [The contractor]
  provides this report to [a NASA official] when a server is initially placed in a production
  environment.



REPORT NO. IG-10-018-R                                                                            11
REDACTED FOR PUBLIC RELEASE                                                                RESULTS



     Although additional scans were performed during the life cycle of a server, [the
     contractor] did not provide the scan, which would identify built-in administrator account
     settings, to the [responsible Center official]. Therefore, if the built-in administrator
     account settings are changed to noncompliant after a server has been introduced into
     NASA’s network, there is no process in place to identify those noncompliant settings.
     This essentially means that built-in administrator accounts could go through an entire life
     cycle of the server without the proper settings and without a process to mitigate this risk.
     The chances that an adversary could gain unauthorized access to [the reviewed system]
     increases if built-in administrator accounts are not configured with the proper settings and
     the passwords are not set to expire. Moreover, if [a] local administrator account [on a
     server of the reviewed system] is compromised, a skilled attacker could gain access to
     any of NASA’s systems that are either physically or logically attached to [the reviewed
     system].

     Use of Unauthorized Software. We also found that software had been installed on [the
     reviewed system’s] server without [contractor] IT security officials’ approval, and the
     software contained multiple high-impact vulnerabilities. [A policy of the contractor]
     dictates that any changes to server configurations must be processed through a system
     change request. [Contractor] officials determined that a third-party vendor had installed
     the software without [the contractor]’s approval and without submitting a system change
     request. [Contractor] IT security officials’ attempt to track the software installation
     revealed no record of the change taking place.

     This occurred because [the contractor] did not properly manage NASA’s system to
     ensure that vulnerable software was not being installed and, if installed, was identified
     and removed. All [of the systems] managed [by the contractor] rely solely on manual
     intervention to ensure that their systems maintain an approved configuration. As
     evidenced by our audit findings, vulnerable software can be installed without prior
     review or approval by [contractor] IT security officials and can go undetected unless
     officials conduct a careful, manual review of server settings and installed software.
     However, [the contractor] does not conduct manual reviews of [the reviewed system’s]
     servers. Rather, [the contractor] conducts only monthly un-credentialed scans and
     periodic IT security audits. The presence of unauthorized software could enable an
     attacker to execute arbitrary code, obtain sensitive information, bypass security
     restrictions, or cause a denial-of-service condition.

     Hardware and Software Inventory Controls Lacking. NASA did not maintain an
     accurate inventory of active hardware and software components on [the reviewed
     system]. Contractual responsibilities require [the contractor] to follow the requirements
     in NPR 2810.1A, and NPR 2810.1A establishes the implementation of NIST publications
     on IT security, which includes NIST SP 800-53. NIST SP 800-53 requires organizations
     to develop, document, and maintain a current, accurate inventory of hardware and
     software components on their information systems. NIST SP 800-53 notes that the
     inventory should be available for review and audit.




12                                                                        REPORT NO. IG-10-018-R
RESULTS                                          REDACTED FOR PUBLIC RELEASE



  During our audit, we requested a list of active [reviewed system] hardware components
  from [the contractor] so that we could select a sample for review to determine the
  accuracy of the hardware inventory. [Contractor] IT security personnel had a difficult
  time providing a list of active [reviewed system] hardware components because the list
  was not readily available to them. Once the list was provided, we determined that only
  50 of the 231 components listed were active (12 components were no longer active and
  169 were duplicate entries). Although we could not determine whether the list was
  complete, we were able to locate all of the [reviewed system’s] hardware components on
  the list.

  Because of the difficulties we encountered in obtaining an inventory of [the reviewed
  system’s active] hardware components, in addition to the unauthorized, vulnerable
  software [. . .] that we identified, we concluded that [the contractor] had not implemented
  a process to ensure a current, accurate, complete, and readily available inventory and that
  the [. . .] Contracting Officer and the NASA CIO had not provided sufficient oversight to
  ensure that [the contractor] complied with its contractual responsibilities and with
  NIST SP-800-53 requirements. If an organization cannot easily produce an accurate
  listing of hardware and software components, as well as maintain accurate documentation
  of those components, the potential for exploitation of vulnerabilities that stem from a lack
  of security controls is increased.

  Media Protection Needed. When [the contractor] transferred media tapes to a storage
  location at [another Federal facility], it did not obtain a written confirmation to verify
  their delivery. NASA Policy Directive 1440.6H, “NASA Records Management,”
  March 24, 2008, requires NASA to identify, select, preserve, and protect records, which
  includes media tapes. [Contractor policy] does not require written receipts when media
  tapes are transferred. During our audit, we visited the storage location after a delivery
  was made, and the custodian noted that a media tape was missing from that delivery. The
  custodian stated that past deliveries also had been missing tapes. Because [the
  contractor] did not obtain written confirmation of the delivery, there was no assurance
  that the media tapes had actually been delivered. We believe that written confirmation of
  delivery of media tapes would provide the necessary security controls for media
  protection, which are needed to ensure continuity of operations; enable the Agency to
  perform emergency preparedness, response, and recovery; and protect Agency assets.
  We discussed the missing media tapes with a [contractor] official who revised [the
  contractor’s policy] to require written confirmation of delivery, and [the contractor]
  reissued [the policy] on September 17, 2009. Accordingly, we are making no additional
  recommendation about this issue.


More Oversight Needed to Ensure Security of Systems and Data

  The weaknesses we identified occurred because NASA did not have sufficient oversight
  to ensure that [the contractor] complied with security control requirements for [the
  reviewed system] and, possibly, the [numerous] other systems that [the contractor]


REPORT NO. IG-10-018-R                                                                           13
REDACTED FOR PUBLIC RELEASE                                                                RESULTS



     manages for NASA. We believe that NASA needs to enhance its oversight of [the
     contractor]’s management of systems containing NASA data, specifically for the
     weaknesses identified and discussed in this report concerning security plans, vulnerability
     scanning, administrator accounts, installation of software, and hardware and software
     inventory controls. In addition, to provide assurance that all controls are functioning to
     protect NASA’s data and systems from attack or compromise, it is vital that NASA
     officials perform their duties in the following areas:

           The NASA CIO for IT Security has management oversight and responsibility for
            ensuring the confidentiality, integrity, and availability of IT resources.

           The [. . .] Contracting Officer has contract oversight to ensure [the contractor]
            complies with the terms of the contract.

           Center Information Technology Security Managers support the Center Chief
            Information Officers to ensure compliance with NASA policies, requirements,
            and directives and to maintain and track the status of all security plans, which
            includes monitoring contractors’ security plans to ensure that IT security controls
            are current and correct.

           Center Organization Computer Security Officials are required to annually review
            system security plans and identify any changes that would require an update, such
            as changes in personnel, software and hardware, function, categories of
            information, information ownership, or risk. Organization Computer Security
            Officials are also required to verify the viability of the contingency plan and the
            date of the last test.

           Information system owners ensure that system security plans are developed and
            reviewed for completeness prior to the certification and accreditation process,
            conduct an annual test and assessment of the system security controls to assure
            effectiveness, and review the system security plans for completeness prior to the
            recertification and reaccreditation process.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

To improve security control practices for [the reviewed system] and the other [. . .] systems
managed by [the contractor], we made the following recommendations.

Recommendation 1. The Information System Owner for each of the [. . .] systems should

        a. Update, as required, the system security plan to include the baseline security
           controls and the security control enhancements identified in the latest revision of
           NIST SP 800-53 and periodically assess the effectiveness of these controls.



14                                                                         REPORT NO. IG-10-018-R
RESULTS                                         REDACTED FOR PUBLIC RELEASE



      b. Comply with the latest revision of ITS-SOP-0016 to ensure that the security plans
         are updated with the specific information related to the system.

Recommendation 2. The [responsible Center official] should direct [the contractor] to

      a. Perform a comprehensive review at least annually of security plans for the
         [. . .] systems managed by [the contractor] for completeness and compliance prior
         to proceeding with any future recertification and reaccreditation.

      b. Implement procedures for eliminating or mitigating the risk associated with not
         performing credentialed scans (if credentialed scans continue to not be required).

      c. Establish procedures for monitoring built-in administrator account settings
         throughout the life cycle for any server placed in the production environment.

      d. Implement comprehensive configuration management practices, which would
         include automated discovery and approved software lists.

      e. Implement a process that ensures accurate and readily available inventories of
         active information system hardware and software components.

Recommendation 3. The NASA Chief Information Officer should

      a. Update NPR 2810.1A to incorporate the requirements of NITR 2810-19, which
         was issued as the replacement for NPR 2810.1A, Chapter 21, to provide guidance
         on proper audit and accountability controls.

      b. Develop and implement procedures for notifying Centers and designated officials
         when security control guidelines are updated or changed.

      c. Require the use of credentialed scans, or implement supplemental controls that
         will reduce risk associated with not performing credentialed scans.

      d. Update or replace ITS-SOP-0021, which expired October 5, 2007, to include
         more current security and vulnerability scanning guidance, and update
         NPR 2810.1A to reference the updated guidance.

Recommendation 4. The appropriate Organization Computer Security Official should
review each of the other [. . .] systems managed by [the contractor] to determine whether
their system has security control weaknesses similar to those identified for [the reviewed
system]. If security control weaknesses exist, the Organization Computer Security Official
should direct [the contractor] to correct those deficiencies, as outlined in
Recommendation 2.




REPORT NO. IG-10-018-R                                                                        15
REDACTED FOR PUBLIC RELEASE                                                                 RESULTS



Recommendation 5. The NASA Chief Information Officer and the [. . .] Contracting
Officer coordinate their efforts to ensure that the security control weaknesses we identified
are corrected and incorporated in the contract.

Recommendation 6. The NASA Chief Information Officer should require all Center
Information Technology Security Managers to

        a. Track the status of all security plans assigned to their Center for compliance with
           the most current revisions of guidance from the National Institute of Standards
           and Technology and the NASA Office of the Chief Information Officer.

        b. Ensure that controls are in place and effective for vulnerability scanning and
           configuration management.

     Management’s Response. In responding to our draft report, NASA provided separate
     responses from the OCIO [and other organizations] (see Appendix C [comments
     redacted]). Because we were unable to obtain a consolidated Agency response despite
     repeated requests, we reviewed and cross-referenced each response and found that, with
     the exception discussed below, all [. . .] organizations generally concurred with our
     recommendations.

     The OCIO said that it would take steps to mitigate and improve [the reviewed system’s]
     security control practices related to vulnerability scans, local administrator accounts, and
     hardware and software inventories on [the reviewed system’s] servers and that it will
     review the other [. . .] systems managed by [the contractor] to identify and correct similar
     security control weaknesses that may exist in those systems. [. . .] However, [one
     organization] nonconcurred with our recommendation to implement comprehensive
     configuration management practices to include automated discovery and approved
     software lists [. . .]. [The organization] stated that it was in the process of developing a
     mitigation plan to prevent future occurrences of unauthorized software on the [reviewed
     system’s] servers and that actions would be taken to determine whether this vulnerability
     exists in the other [contractor]-managed systems.

     Evaluation of Management’s Response. Although the OCIO [and other organizations]
     generally concurred with our recommendations and described the corrective steps they
     intend to take in response, they did not provide planned completion dates for these
     actions. Accordingly, we are requesting that NASA provide this information. With
     regard to [the] nonconcurrence with our recommendation to implement comprehensive
     configuration management practices, we do not believe that the [organization’s rationale
     alleviated the need to implement our recommendation]. However, we find that the
     [organization’s] proposed actions to develop a mitigation plan to prevent future
     occurrences of unauthorized software on the [reviewed system’s] servers and validate
     whether this vulnerability exists for the other [. . .] systems are responsive to our
     recommendation. Accordingly, we will close the recommendations after verifying that
     NASA has taken the proposed corrective actions.



16                                                                         REPORT NO. IG-10-018-R
APPENDIXES                                       REDACTED FOR PUBLIC RELEASE




                                                                            APPENDIX A


Scope and Methodology

  We performed this audit from February 2009 through May 2010 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objective. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objective.

  We performed the audit to review the security controls included in the [reviewed
  system’s] Security Plan to mitigate the risk of outside intrusion or internal trespassing of
  [the reviewed system]. Audit work was performed at the [. . .] locations where [the
  reviewed system’s] servers are maintained: [. . .]. NIST SP 800-53, “Recommended
  Security Controls for Federal Information Systems,” Revision 2, December 2007,
  applicable at the beginning of audit fieldwork, identified the security control baselines for
  information systems. We reviewed the [reviewed system’s] latest [. . .] Security Plan,
  Revision D, September 26, 2008, to determine whether the security controls identified to
  mitigate risks for [the reviewed system] were in line with Federal requirements. Other
  documents used in our audit are described in Appendix B.

  Audit Sample. [The reviewed system] comprises [numerous] servers [. . .]. We
  randomly selected [a small percentage] of these servers for review. The purpose of the
  sample was to randomly select servers for our audit, but the results from the sample were
  never intended to be projected to the population.

  We reviewed selected controls on the five servers to determine whether the controls were
  adequately implemented. We selected 13 of 17 families (see the table on page 3;
  Program Management was not identified by NIST as a security control when we began
  our audit). We did not review (1) System and Services Acquisition, (2) Incident
  Response, (3) Maintenance, or (4) Personnel Security.

  Computer-Processed Data. We did not use computer-processed data in the
  performance of this audit. We did however obtain information that was the result of data
  manually entered into the system via a word processor or spreadsheet. We verified the
  information provided and used during our audit to source documentation.




REPORT NO. IG-10-018-R                                                                            17
REDACTED FOR PUBLIC RELEASE                                                            APPENDIX A



Review of Internal Controls

     We examined controls for ensuring the confidentiality, integrity, and availability of [the
     reviewed system’s] data. We discussed the control weaknesses identified in the Results
     section of this report. Our recommendations, if implemented, will improve those
     identified weaknesses.


Prior Coverage

     During the last 5 years, the NASA Office of Inspector General (OIG) and the
     Government Accountability Office (GAO) have issued seven reports relevant to the
     subject of this report. Unrestricted reports can be accessed over the Internet at
     http://oig.nasa.gov/audits/reports/FY10 (NASA OIG) and http://www.gao.gov (GAO).

     NASA Office of Inspector General

     “Federal Information Security Management Act: Fiscal Year 2009 Report from the
     Office of Inspector General” (IG-10-001, November 10, 2009)

     “Final Memorandum on the Audit of the Reporting of NASA’s National Security
     Systems” (IG-09-024, August 28, 2009)

     “Federal Information Security Management Act: Fiscal Year 2008 Report from the
     Office of Inspector General” (IG-08-031, September 30, 2008)

     “Controls over the Detection, Response, and Reporting of Network Security Incidents
     Needed Improvement at the Four NASA Centers Reviewed” (IG-07-014, June 19, 2007)

     Government Accountability Office

     “Cybersecurity: Continued Efforts Are Needed to Protect Information Systems from
     Evolving Threats” (GAO-10-230T, November 17, 2009)

     “Information Security: NASA Needs to Remedy Vulnerabilities in Key Networks”
     (GAO-10-4, October 15, 2009)

     “Information Security: NASA Needs to Remedy Vulnerabilities in Key Networks”
     (GAO-10-3SU, October 15, 2009)




18                                                                         REPORT NO. IG-10-018-R
APPENDIX B                                        REDACTED FOR PUBLIC RELEASE




                                                    POLICIES AND PROCEDURES


  In the evaluation of NASA’s and [the contractor]’s efforts to secure [the reviewed
  system] and the data within, we reviewed the following Federal, NASA, and [contractor]
  laws, regulations, policies, procedures, and guidance to determine whether the
  requirements were being met in the [reviewed system’s] operational environment.


Federal Guidelines

  OMB Circular No. A-130, Revised, “Management of Federal Information Resources,”
  Appendix III, “Security of Federal Automated Information Resources,” November 28,
  2000. This Circular requires Federal agencies to implement and maintain a program to
  assure that adequate security is provided for all agency information collected, processed,
  transmitted, stored, or disseminated in major applications. The Circular establishes the
  minimum set of controls to be included in Federal automated information security
  programs; assigns Federal agency responsibilities for the security of automated
  information; and links agency automated information security programs and agency
  management controls systems established in accordance with OMB Circular No. A-123,
  “Management’s Responsibility for Internal Control,” (revised) December 21, 2004; and
  incorporates requirements of the Computer Security Act of 1987 (Public Law 100-235)
  and responsibilities assigned in applicable national security directives. The Circular also
  requires the review of application controls, stating that an independent review or audit of
  the security controls for each major application should be performed at least every
  3 years; the review or audit should be independent of the manager responsible for the
  application because of the higher risk involved in major applications; and the review
  should verify that responsibility for the security of the application has been assigned, that
  a viable security plan for the application is in place, and that a manager has authorized
  the processing of the application. A deficiency in any of these controls should be
  considered a deficiency pursuant to the Federal Managers’ Financial Integrity Act and
  OMB Circular No. A-123.

  FIPS Publication 199, “Standards for Security Categorization of Federal Information and
  Information Systems,” February 2004. This publication specifies the standards for
  categorizing information and information systems supporting the executive agencies of
  the Federal Government. Security categorization standards for information and
  information systems provide a common framework and understanding for expressing
  security and promotes (1) effective management and oversight of information security
  programs, including the coordination of information security efforts throughout the
  civilian, national security, emergency preparedness, homeland security, and law
  enforcement communities and (2) consistent reporting to OMB and Congress on the
  adequacy and effectiveness of information security policies, procedures, and practices.


REPORT NO. IG-10-018-R                                                                            19
REDACTED FOR PUBLIC RELEASE                                                         APPENDIX B



     NIST SP 800-115, “Technical Guide to Information Security Testing and Assessment,”
     September 2008. This publication provides guidelines for organizations on planning and
     conducting technical information security testing and assessments, analyzing findings,
     and developing mitigation strategies. It replaced NIST SP 800-42.

     NIST SP 800-53, “Recommended Security Controls for Federal Information Systems and
     Organizations,” Revision 3, August 2009. This publication provides guidelines for
     selecting and specifying security controls for information systems. The guidelines apply
     to all components of an information system that processes, stores, or transmits Federal
     information and were developed to help achieve more secure information systems and
     effective risk management within the Federal Government. This latest revision of
     NIST SP 800-53 identifies 178 baseline security controls. Revision 2 (December 2007)
     had identified 163 baseline security controls, as had Revision 1 (December 2006). The
     original NIST SP 800-53, issued in February 2005, identified 157 baseline security
     controls.

     NIST SP 800-53A, “Guide for Assessing the Security Controls in Federal Information
     Systems,” July 2008. This publication provides guidelines for building effective security
     assessment plans and a comprehensive set of procedures for assessing the effectiveness of
     security controls employed in information systems supporting the executive agencies of
     the Federal Government. The guidelines apply to the security controls defined in
     NIST SP 800-53 (as amended) and any additional security controls developed by the
     organization. The guidelines were developed to help achieve more secure information
     systems within the Federal Government.

     NIST SP 800-50, “Building an Information Technology Security Awareness and Training
     Program,” October 2003. This publication provides guidelines for building and
     maintaining a comprehensive security awareness and training program.

     NIST SP 800-42, “Guideline on Network Security Testing,” October 2003 (replaced by
     NIST SP 800-115 in September 2008). NIST SP 800-42 provided guidance on network
     security testing. The main focus of the publication was the basic information about
     techniques and tools for individuals to begin a network security testing program, and it
     identified network testing requirements and how to prioritize testing activities with
     limited resources. It also described network security testing techniques and tools.
     NITS SP 800-42 also provided guidance to assist an organization in avoiding duplication
     of effort by providing a consistent approach to network security testing throughout the
     organization’s networks. Further, it provided a feasible approach for organizations by
     offering varying levels of network security testing as appropriate to the organization’s
     mission and security objectives.

     NIST SP 800-34, “Contingency Planning Guide for Information Technology Systems,”
     June 2002. This publication provides instructions, recommendations, and considerations
     for Government IT contingency planning.




20                                                                      REPORT NO. IG-10-018-R
APPENDIX B                                        REDACTED FOR PUBLIC RELEASE



  NIST SP 800-18, “Guide for Developing Security Plans for Federal Information
  Systems,” Revision 1, February 2006. This publication provides the bulk of the
  information for preparing security plans. It stresses the importance of periodically
  assessing system security plans, to include a review of any change in the system status,
  functionality, or design to ensure that the plan continued to reflect the correct information
  about the system. The security plan and its correctness are critical for system
  certification activity. In addition, the publication states that all security plans should be
  reviewed and updated, if appropriate, at least annually. The completion of security plans
  is required by OMB Circular No. A-130, Appendix III.

  NIST SP 800-16, “Information Technology Security Training Requirements: A Role- and
  Performance-Based Model,” April 1998. This publication outlines the conceptual
  framework for providing IT security training. This framework includes the IT security
  training requirements appropriate for today’s distributed computing environment and
  provides flexibility for extension to accommodate future technologies and the related risk
  management decisions.


NASA Policies and Procedures

  NPR 2810.1A, “Security of Information Technology,” May 16, 2006. This NPR
  establishes the procedures and requirements of the NASA IT security program. The NPR
  provides direction to ensure the safeguards for protecting the confidentiality, integrity,
  and availability of unclassified IT resources are integrated into and support NASA’s
  missions, functional lines of business, and infrastructure based on risk-managed,
  cost-effective IT security and information security principles and practices. The NPR
  requires that system security plans contain security controls appropriate for the risks
  assigned to that system, that required baseline security controls be periodically assessed
  to determine their effectiveness, and that security plans be updated annually. Security
  plans are considered living documents, with sections being added or modified, and should
  be reviewed annually to identify any changes that would require an update.
  NPR 2810.1A also requires the Centers’ Information Technology Security Managers to
  maintain and track the status of all system security plans assigned to their Center for
  compliance with NIST.

  NITR 2810-19, “Audit and Accountability Policy and Procedures,” November 12, 2008.
  NITRs are interim policies and requirements necessary to address new issues and to
  clarify existing policy and requirements. Once a NITR has been incorporated into the
  appropriate NPR, it is canceled. This NITR provided NASA information system audit
  and accountability policy and procedures to meet current NIST requirements.
  NITR 2810-19 is a replacement for NPR 2810.1A, Chapter 21, “Audit Trail and
  Accountability.” It has not yet been incorporated into the NPR.

  ITS-SOP-0016C, “Information Technology Security Plan Template, Requirements,
  Guidance and Examples,” April 17, 2008. This procedure provides requirements,


REPORT NO. IG-10-018-R                                                                            21
REDACTED FOR PUBLIC RELEASE                                                                       APPENDIX B



     guidance, and examples for the completion of IT security plans and implements the
     baseline security controls in NIST SP 800-53. It also requires that every baseline security
     control be addressed in the security plan, whether it is applicable or not applicable to (or
     not accepted by) the system. The template identifies information such as the frequency
     and criteria for testing security controls to allow an organization to tailor the security
     controls to support specific mission, business, or operational needs. ITS-SOP-0016C
     replaced ITS-SOP-0016B, issued July 11, 2006.

     ITS-SOP-0021, “Network Security Vulnerability Scanning,” effective October 5, 2005,
     expired October 5, 2007. This procedure provided guidance on network vulnerability
     scanning. NPR 2810.1A requires that the Center Information Technology Security
     Manager, along with two other NASA officials, develop and maintain this procedure.
     This procedure also referenced NIST SP 800-42, which was replaced by
     NIST SP 800-115 in September 2008. ITS-SOP-0021 is no longer included in the NASA
     Online Directives Information System although it is still referenced in NPR 2810.1A.


[Contractor] Policies and Procedures

     [Paragraphs Redacted]


Updated, Expired, or Nonexistent Guidance

     Updated Federal Guidance

     NPR 2810.1A and ITS-SOP-0021 both reference and require NIST SP 800-42.
     NIST SP 800-115 replaced NIST SP 800-42 in September 2008 and provides more
     detailed guidance on network and software discovery and vulnerability scanning and
     mitigation.

     Expired or Nonexistent NASA Procedures

     The following procedures are identified in the [reviewed system’s] Security Plan,
     Revision D, even though expired. Two procedures have been expired for more than
     2 years. All of the procedures have been removed from the NASA Online Directives
     Information System, except ITS-SOP-0033 (even though expired) and ITS-SOP-0006,
     which was reissued with an effective date of January 11, 2010.5

               ITS-SOP-0018, “Contract IT Security Program Plan Procedures,” effective
                October 5, 2005 (expired October 5, 2007)


     5
         ITS-SOPs no longer exist and are now referred to as ITS Handbooks. ITS-SOP-0006 was reissued as
         ITS-HBK-0006.



22                                                                                  REPORT NO. IG-10-018-R
APPENDIX B                                    REDACTED FOR PUBLIC RELEASE



        ITS-SOP-0021, “Network Security Vulnerability Scanning” effective October 5,
         2005 (expired October 5, 2007)

        ITS-SOP-0019B, “Procedure for the FIPS-199 Categorization of Information
         Systems,” effective July 11, 2006 (expired July 11, 2008)

        ITS-SOP-0032, “Master Information Technology Security Plan Template,
         Requirements, Guidance and Examples,” effective July 11, 2006 (expired July 11,
         2008)

        ITS-SOP-0013, “Procedures for Routine NASA Network and Context
         Monitoring,” effective July 18, 2006 (expired July 18, 2008)

        ITS-SOP-0006C, “Procedures for Extending an IT System Authorization to
         Operate,” effective March 3, 2007 (expired March 3, 2009)

        ITS-SOP-0014, “Procedures for Approving Changes to NASA’s Information
         Technology Baseline,” effective April 18, 2006 (expired April 18, 2009)

        ITS-SOP-0033, “External System Identification and IT Security Requirements,”
         effective July 19, 2007 (expired July 19, 2009)

  The [reviewed system’s] Security Plan, Revision D, also references two ITS-SOPs that
  we were unable to locate, and NASA officials could not provide us a copy.

        ITS-SOP-0011, “Procedure for Development and Life-Cycle of NASA Master
         Security Plans”

        ITS-SOP-0038, “Procedure for Audit and Accountability Controls”




REPORT NO. IG-10-018-R                                                                     23
REDACTED FOR PUBLIC RELEASE                           APPENDIX C




                                    MANAGEMENT COMMENTS




                         Comments
                         Redacted




24                                          REPORT NO. IG-10-018-R
APPENDIX D                                   REDACTED FOR PUBLIC RELEASE




                                                     REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief Information Officer
  [some addressees deleted]
  Information Technology Security Manager, Ames Research Center
  Information Technology Security Manager, Dryden Flight Research Center
  Information Technology Security Manager, Glenn Research Center
  Information Technology Security Manager, Goddard Space Flight Center
  Information Technology Security Manager, Headquarters
  Information Technology Security Manager, Jet Propulsion Laboratory
  Information Technology Security Manager, Johnson Space Center
  Information Technology Security Manager, Kennedy Space Center
  Information Technology Security Manager, Langley Research Center
  Information Technology Security Manager, Marshall Space Flight Center
  Information Technology Security Manager, NASA Shared Services Center
  Information Technology Security Manager, Stennis Space Center

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, NASA Financial Management, Office of Financial Management and
        Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs




REPORT NO. IG-10-018-R                                                         25
REDACTED FOR PUBLIC RELEASE                                                APPENDIX D



Congressional Committees and Subcommittees, Chairman and
  Ranking Member (continued)

     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Management, Organization, and Procurement
     House Committee on Science and Technology
        Subcommittee on Investigations and Oversight
     Subcommittee on Space and Aeronautics




26                                                               REPORT NO. IG-10-018-R
                                              REDACTED FOR PUBLIC RELEASE




Major Contributors to the Report:
   Wen Song, Director, Information Technology Directorate
   Vincent Small, Project Manager
   Bret Skalsky, Team Lead
   Bessie Cox, Auditor
   Christopher Reeves, IT Specialist




REPORT NO. IG-10-018-R                                                  27
REDACTED FOR PUBLIC RELEASE
                                                                                       AUGUST 5, 2010
                                                                      REPORT No. IG-10-018-R




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY10/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
